U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brandon Jones v. United States, No. 20-1092
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 5,
2021. The government’s response is now due, after one extension, on April 14, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 14, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1092
JONES, BRANDON
USA

LUCAS ARMENT ANDERSON
ROTHMAN, SCHENIDER, SOLOWAY & STERN
100 LAFAYETTE STREET
SUITE 501
NEW YORK, NY 10013
212-571-5500
LANDERSON@RSSSLAW.COM
JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM

